                               CLOSEOUT FOR M-95040014




  institution). The complainant alleged that the subject's Biographical Sketches in two proposals,
  submitted simultaneously, conianed conflicting infomation about his present academic position
  and that one of them must be a misrepresentation. He said that the Biographical Sketch in NSF
  proposal-indicated                     that the s
  institution, while the Biographical Sketch in
  foreign foundation proposal) stated that th
-(the
-                    second institution). In addition, the complainant alleged that the subj
  simult~eouslysubmitted proposals were essentially equivalent, a fact the he failed to indicate, as
  required, in his NSF proposal.

        OIG wrote to the subject, who provided us with a description of his employment status.
The subject explained that he held joint appointments at the first and second institutions, but that
only one supported him at any given time. H e said that a complete description of his employment
status would have been lengthy and corhsing. OIG confirmed with the first institution that the
joint-appointment situation described by the subject was correct.

          The subject's NSF Biographical Sketch correctly represented his position at the first
 institution, but did not reflect his continued joint affiliation with the second institution. OIG
 requested a program officer's opinion regarding the seriousness of this misrepresentation. The
 program officer stated, and OIG agreed, that the incorrect information presented by the subject in
 his Biographical Sketch provided him no advantage in the review process and the
 misrepresentation was not a serious deviation from accepted practice. The program officer
 described the matter as "a serious incidence of stupidity." OIG concluded that, in this case, the




                                            Page 1 of 2                                     M95- 14
                              CLOSEOUT FOR M-95040014

incorrect information provided by the subject in his NSF proposal did not rise to the level of
misconduct in science.

        With respect to the second allegation, the subject provided OIG with annotated copies of
both proposals to show the differences between them. ~e explained that the two proposals were
intended to perform complementary research on different materials and would produce different
experimental results and conclusions. OIG concluded that there was no substance to the allegation
that the subject had submitted two essentially similar proposals simultaneously to NSF and the
foreign foundation.

       This inquiry is closed, and no further action will be taken in this case.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                             Page 2 of 2
